                                                                   I



                                CLOSEOUT FOR M90070025
                                                                   -.




   -
                           - to OIG on July 5, 1990, by D-r.
        This case was brought                                                   - -
                                                                         then Deputy
                       x-
Director of the Division    of 4                                NSF's Directorate of




  -
Engineering (the deputy division director). ~ e h a dreceived information concerning




-
          -   .

allegations of misconduct in science from D;. 0of the
then a former NSF program officer in his division. Dr. 0(the complainant), a

                           '   , had made allegations of misconduct-to the former program
-alegations                                was Dr.            -o
                                                               f                   who was PI
 on NSP grants                  entitled

          (the second award).

        The subject and the complainant initiated a research collaboration in 1987 that ended
less than a year after it began when the two researchers disagreed over the appropriate
authorship order on a paper they were preparing for publication. Their dispute included
disagreement as 'to who had made the crucial experimental advances in their joint work. The
subject mentioned his collaboration with the complainant in the proposal that resulted in the
second award, but did not ask for NSF funds to support the complainant's activities or include
documentation in his proposal indicating that the complainant had agreed to work on the
project. The collaboration dissolved after the proposal was submitted but before the award
was made.

        In an April 26, 1990, conversation with the former program officer, the complainant
learned that the subject had received the second award. In that conversation, the complainant
alleged that the subject had claimed credit for experimental results fnst produced in the
complainant's laboratory. The former program officer advised the complainant to make his
allegations known to the subject's department chp
                                                -alri,                      and the complainant
says that he did so. After further consultations with the former program officer, the
complainant sent the subject a letter explaining the complainant's allegations. The subject
wrote a statement to rebut the allegations against him and allegedly sent it to the complainant,
the complainant's supervisor, the subject's department chair, and the former program officer.
The matter was brought to OIG after the former program officer learned of the subject's
rebuttal, and when it had become apparent that his attempt to mediate the dispute between the
subject and the complainant had failed and that the department chair would not take steps to
resolve the matter to the complainant's satisfaction.


                                      page 1 of 3                             M90-25
                                CLOSEOUT FOR WOO70025

        OIG considered four allegations of misconduct arising from the information the
complainant provided. These were (1) that the subject, in an article that acknowledges support
from NSF,' misappropriated the complainant's work and represented it as his own; (2) that the
subject prevented the complainant from publishing the work in dispute under the complainant's
own name; (3) that the subject did not inform the complainant that he was proposing a project
to NSF that included the complainant's participation, seek the complainant's permission to
discuss their collaboration in the NSF proposal that resulted in the second award, or inform
NSF that the collaboration had ended; and (4) that the subject misappropriated the
complainant's ideas and incorporated them in the proposal that resulted in the second award.

        OIG determined that resolving the frrst two allegations would require examining the
laboratory records of the two researchers for evidence of when and whether each achieved
certain experimental results. We asked the complainant to supply laboratory records that
supported his priority claims and suggested that the subject had misappropriated the
complainant's research findings. The complainant informed us that his laboratory had been
repeatedly relocated. He said he was unsure what records had survived the relocations and
whether the surviving records would persuasively document his priority claims. Despite OIG's
repeated requests, the complainant did not provide us with evidence from his laboratory
records to support his allegations, and OIG determined it was not practicable to visit the
complainant's laboratory and make an extensive search for relevant surviving records. OIG
was also concerned that the attempts to mediate the priority dispute without first securing the
subject's laboratory records made the integrity of any surviving records questionable and might
make it impossible to accurately resolve the allegations. Because the subject's institution is no
longer under an obligation to retain the relevant award records, OIG concluded that the
passage of time had rendered both the documentary and testimonial evidence bearing on these
two allegations unreliable and that the allegations were impossible to pursue at this time.

        With regard to allegation #3, OIG noted that the representations in the proposal that
resulted in the subject's second award were accurate at the time the proposal was submitted.
NSF was not asked to fund the complainant's activities, nor did it make the complainant's
participation a condition of the award. OIG does not believe it would be practicable to
ascertain-- nearly a decade after the events in question-- whether or why the subject failed to
inform the complainant that he was to be mentioned in the NSF proposal and failed to notify
NSF that the collaboration had ended. We did not reach the issue of whether the actions that
comprise allegation #3, if performed without good reason, might rise to the level of
misconduct in science.

       With regard to allegation #4, OIG determined that the two researchers were clearly
working together on the ideas discussed in the subject's proposal. When the collaboration
dissolved, each of them was entitled to pursue the ideas independently. The ideas in the
proposal follow naturally from the subject's earlier work and from the distinctive strengths he
brought to the collaboration. The complainant provided no evidence, beyond his own disputed




                                      page 2 of 3                              M90-25
                                 CLOSEOUT FOR WOO70025

recollections, to substantiate this allegation, and the text of the proposal tends to disconfirm it.
We concluded that there was insufficient substance to pursue this allegation.

       This inquiry is closed and no further action will be taken on this case.



cc: Deputy Assistant Inspector General, Oversight; Assistant Inspector General, Oversight; IG




                                        page 3 of 3
